               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Stamp Distribution Procedures

                       Audit Report




                                              July 29, 2011

Report Number FF-AR-11-012
                                                                          July 29, 2011

                                                     Stamp Distribution Procedures

                                                        Report Number FF-AR-11-012




IMPACT ON:
Nationwide stamp distribution               the next 10 years, and $437,000 for
procedures.                                 unsecured stamp stock shipments.

WHY THE OIG DID THE AUDIT:                  WHAT THE OIG RECOMMENDED:
Our objectives were to determine            We recommend limiting access to the
whether procedures over stamp stock         Stamp Services System; developing a
shipments were efficient and effective,     nationwide strategy to manage lost
and whether accountable items were          stamp stock shipments, identify trends
properly secured and accounted for in       and problem areas, and perform risk
the stamp distribution network.             assessments while monitoring stamp
                                            stock shipments; and instructing units to
WHAT THE OIG FOUND:                         notify the U.S. Postal Service Office of
The U.S. Postal Service had effective       Inspector General when stamp stock
procedures over stamp stock shipments       shipments are lost or missing.
and, generally, did properly account for
stamp stock shipments in the stamp          We also recommend consolidating the
distribution network. However, the          three remaining SDOs into the existing
Postal Service did not sufficiently         network and performing stamp
mitigate the increased level of risk        destruction with Postal Service
incurred when discontinuing use of the      resources.
Registered Mail™ service for stamp
stock shipments and consolidating the       WHAT MANAGEMENT SAID:
stamp distribution offices (SDOs) into      Management agreed with the findings,
six stamp distribution centers.             recommendations, and monetary
Additionally, we identified opportunities   impact. They agreed there are areas for
where the Postal Service could further      improvement with the stamp distribution
consolidate the stamp distribution          and lost stamp stock shipment claims
network and perform all stamp               processes, and further costs savings are
destruction with Postal Service             potentially achievable through additional
resources. We identified annual cost        consolidations.
savings of $637,000, or $5.9 million over
                                            Link to review the entire report
July 29, 2011

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Stamp Distribution Procedures
                           (Report Number FF-AR-11-012)

This report presents the results of our audit of Stamp Distribution Procedures (Project
Number 11BG005FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Field Financial – East, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Joseph Corbett
    Myrna J. Murphy
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Mitigating Increased Risks of Stamp Stock Losses ......................................................... 1

Consolidating the Stamp Distribution and Destruction Network ...................................... 4

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objectives, Scope, and Methodology .......................................................................... 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary and Other Impacts..................................................................... 11

Appendix C: Statistical Sampling Methodology ............................................................. 12

Appendix D: Management’s Comments ........................................................................ 13
Stamp Distribution Procedures                                                                       FF-AR-11-012




Introduction

This report presents the results of our audit of stamp distribution procedures (Project
Number 11BG005FF000). Our objectives were to determine whether procedures over
stamp stock shipments were efficient and effective and whether accountable items were
properly secured and accounted for in the stamp distribution network. This self-initiated
audit addresses financial risk. See Appendix A for additional information about this
audit.

The U.S. Postal Service made significant changes to the stamp distribution program in
the last few years. In fiscal year (FY) 2010, the Postal Service consolidated 72 of
75 stamp distribution offices (SDOs) into six stamp distribution centers (SDCs).
Additionally, they consolidated all stamp destruction into three SDCs, two operated by
contractors and one operated with Postal Service resources. Also, in FY 2009, the
Postal Service changed the method of processing stamp stock shipments to retail units
from Registered Mail™ service to Priority Mail® with Signature Confirmation™ service.

Conclusion

The Postal Service had effective procedures over stamp stock shipments and,
generally, properly accounted for stamp stock shipments in the stamp distribution
network. However, the Postal Service did not sufficiently mitigate the increased level of
risk incurred when discontinuing use of Registered Mail service for stamp stock
shipments and consolidating the SDOs into six SDCs. Additionally, we identified
opportunities where the Postal Service could further consolidate the stamp distribution
network and perform all stamp destruction with Postal Service resources. We identified
annual cost savings of $637,000, or $5.9 million over the next 10 years, and $437,000
for unsecured stamp stock shipments.

Mitigating Increased Risks of Stamp Stock Losses

The Postal Service did not sufficiently mitigate the increased risk of stamp stock losses
when discontinuing use of Registered Mail service for stamp stock shipments and
consolidating the SDOs into the SDCs. Specifically, we found that the compensating
controls 1 the Postal Service added were insufficient to secure stamp stock shipments
and automated ordering procedures did not provide control over who could order
stamps. The Postal Service implemented changes to the stamp ordering process to
increase efficiency and save a projected $35.1 million per year. However, Postal
Service officials stated they were managing new initiatives in FY 2010 and, therefore,
did not conduct a post-implementation review of the internal controls. As a result, the
Postal Service’s claims for lost or stolen stamp stock shipments increased since
discontinuing use of Registered Mail service and consolidating the SDOs.


1
 Compensating controls include maintaining an SDC customer tracking log, monitoring in-transit stamp stock
shipments, and changing stamp stock shipment packaging procedures.
                                                      1
Stamp Distribution Procedures                                                                         FF-AR-11-012



Although the Postal Service implemented some compensating controls, the changes did
not include a comprehensive and consistent nationwide process to manage stamp stock
shipments and mitigate the increased losses. Specifically:

   The SDCs implemented a customer tracking issue log for retail issues. We found
    SDC managers did not always update these logs and one district instructed their
    retail units to stop calling the SDC.

   We found that 23 of 32 districts reviewed had procedures to monitor in-transit stamp
    stock shipments; however, these procedures were not consistent. Additionally, nine
    districts did not have any procedures.

   Stamp distribution personnel could not determine which locations in the
    transportation and processing network delayed stamp stock shipments or damaged
    packages.

   Stamp distribution personnel changed packaging procedures in response to
    damaged packages but did not monitor to see whether these changes were
    implemented and effective. We found stamp stock shipments still packaged
    incorrectly, resulting in broken packages and lost stamps.

   We found instances where stamp stock shipments were lost, arrived late and/or
    damaged, missed scans, and were left unsecured upon arrival.

Further, stamp distribution personnel did not limit who could order stamp stock
shipments through the Stamp Services System (SSS) and could not determine who
ordered stamp stock. Consequently, personnel could order stamps without authority and
convert them for personal use. 2 The Postal Service mitigated this risk by relying on
Accounting Services 3 to alert the retail unit when a stamp order is not accepted.
Accounting Services notifies the retail unit after 10 days when they have stock in-transit
and after 15 days they issue a stock ledger expense to the retail unit. 4 The unit, in turn,
is required to research and resolve these types of discrepancies. Although this
procedure could detect unauthorized activity if units effectively manage their financial
operations, limiting who can order stamps provides a more effective, preventive control.

Before the stamp distribution network was consolidated, stamp stock shipments
traveled shorter distances. After the consolidation, opportunities increased for losses in
transit because stamp stock shipments were traveling greater distances and were
handled more frequently. Claims for lost or stolen stamp stock shipments rose from an




2
  We conducted tests to determine whether this situation has occurred and did not detect any such instances.
3
  The Postal Service has a centralized accounting service in St. Louis, MO to perform this control.
4
  Handbook F-101, Field Accounting Procedures, Section 8-4 (b) and (c), dated April 2011, directs units to account
for missing stamp orders by recording an expense.


                                                         2
Stamp Distribution Procedures                                                                            FF-AR-11-012



average of $10,918 5 per month prior to the SDO consolidation to $123,231 6 per month
once the SDO consolidation was completed. The Postal Service was unaware of this
increase. We found that at least $437,000 of the $1.3 million lost or stolen stamp stock
shipment claims for losses the Postal Service filed pertained to missing or damaged
stamp stock shipments.

Additionally, the Postal Service is not always notifying the U.S. Postal Service Office of
Inspector General (OIG) when there is a lost or missing stamp stock shipment. 7 We
found six of 12 missing stamp stock shipments valued at $115,795 that postal retail
units did not notify the OIG’s Office of Investigation (OI) about. Without a nationwide
strategy to manage lost stamp stock shipments, the Postal Service cannot determine
where losses are occurring. See Table 1 for the Postal Service’s claims for lost or stolen
stamp stock shipments filed from November 2008-January 2011. See Appendix B for
the details of other impact.

                            Table 1 – Claims for Loss by Dollar Amount


                                        All stamp                 SDO
                                        shipments              consolidation
                                         sent via                begins.
                                       Priority Mail.

                       All stamp
                       shipments
                      under $500
                        sent via
                      Priority Mail.

                          Postal
                         Service
                      tested new
                      procedures
                       from Sept.
                      2008 – Feb.                                                      SDO
                          2009.                                                     consolidation
                                                                                     completed.




    Source: Enterprise Data Warehouse (EDW)




5
  Thirteen-month average unaudited claims for losses process by Postal Service November 2008 through
November 2009.
6
  Seven-month average unaudited claims for losses processed by the Postal Service July 2010 through January
2011. We observed that losses were greatest with districts with a higher population.
7
  Handbook F-101, Section 8-6.2.1.1 (d) directs units to notify the OIG if a stamp stock shipment is lost or missing.


                                                           3
 Stamp Distribution Procedures                                                                          FF-AR-11-012



 Consolidating the Stamp Distribution and Destruction Network

 The Postal Service could further consolidate the stamp distribution network by merging
 the three SDOs located outside the continental U.S. into the existing SDC network.
 Asset Management 8 would be able to provide oversight of the entire stamp distribution
 network, providing consistent policies and procedures. The Postal Service did not
 identify this opportunity because their focus was on consolidating the 72 continental
 U.S. (CONUS) SDOs into six SDCs. By merging the three remaining SDOs into the
 SDC network, the Postal Service could realize an annual cost savings of $510,000, or
 $4.4 million over the next 10 years. See Table 2 for details of the annual cost savings.

                       Table 2 – SDO Consolidation Annual Cost Savings

                                                                                 Costs After Consolidating
                                         Existing Costs to Operate               the Remaining SDOs into
         Type of Costs                     the Remaining SDOs                        the SDC Network
 Labor                                                    $616,614                                $78,859
 Transportation                                             44,035                                  72,019
 Facility                                                        0                                       0
 Total                                                    $660,649                               $150,878

 Total Annual Cost                                                $509,771
 Savings

Source: SSS, invoices, and interviews with Postal Service personnel.

 In considering the cost savings, we noted that overall labor costs should decrease
 because the Postal Service could eliminate all of the positions at the three SDOs and
 the SDC network would only have to hire one additional employee or pay overtime to
 handle the additional orders. Further, transportation costs will increase because the
 SDCs would be shipping many packages using air transportation to retail units
 previously serviced by the SDOs. Finally, we believe facility costs will remain the same
 because the existing SDOs occupy small sections of Postal Service-owned facilities;
 therefore, we did not attribute a cost to them. Further, there would be no additional
 facilities costs at the consolidated facilities because Postal Service personnel stated
 they would add only minimal additional inventory.

 Additionally, the Postal Service could perform stamp destruction with Postal Service
 resources more efficiently. The Postal Service consolidated all CONUS stamp
 destruction into three SDCs during FY 2010, two operated by contractors and one
 operated with Postal Service resources. The Postal Service did not evaluate
 alternatives to contracting for these functions because they focused on the SDO
 consolidation and did not analyze ways to reduce stamp destruction costs.

 8
  Asset Management’s mission is to optimize the flow of materials, including stamps, through the supply chain. They
 oversee the entire stamp distribution network, except for the three SDOs located outside the continental U.S., which
 are managed by districts.


                                                           4
 Stamp Distribution Procedures                                                                         FF-AR-11-012




 The Postal Service could reduce costs by discontinuing the contractor operations,
 purchasing shredders for two SDCs, and accomplishing stamp destruction with Postal
 Service personnel. Accomplishing destruction with Postal Service personnel uses
 existing labor hours more efficiently. Another available alternative is to discontinue the
 contractor operations, only purchase one shredder, and consolidate stamp destruction
 into two SDCs. By consolidating destruction to two locations, the Postal Service reduces
 the span of control over the destruction process by receiving, accounting for, securing,
 and destroying stamps at one less location. Additionally, because postal retail units
 returned less stamp stock to the stamp distribution network during FYs 2008-2010,
 stamp destruction operations at three SDCs should not be necessary. As a result, the
 Postal Service could realize an additional annual cost savings of at least $127,000, or
 $1.5 million over the next 10 years. See Table 3 for details of the annual cost savings.
 See Appendix B for details of the monetary impact.

            Table 3 – Stamp Destruction Consolidation Annual Costs Savings

                                                                                        Option Two:
                             Existing Stamp               Option One:
                                                                                   Purchase One Shredder
      Type of Costs           Destruction                Purchase Two
                                                                                      and Consolidate
                                 Costs                     Shredders
                                                                                          Network
 Contractor                            $177,360                           $0                            $0
 Shredder                                     0                      33,373 9                     16,687 10
 Shredder                                     0                        2,000                         1,000
 Maintenance
 Shredded Stamp                                   0                   15,181                                   7,590
 Disposal
 Labor                                        0                           0                                     0 11
 Total                                 $177,360                     $50,554                                $25,277

 Total Annual                                                      $126,806                              $152,083
 Cost Savings

Source: Invoices, contracts, EDW, and interviews with Postal Service personnel.




 9
    $333,732 total costs amortized over 10 years.
 10
    $166,866 total cost amortized over 10 years.
 11
    Postal Service personnel stated that purchasing shredders or consolidating the stamp destruction network will not
 increase labor costs. Labor costs will remain the same because Postal Service employees currently witness
 contractors destroying the stock. The Postal Service could reassign the employees to destroy the stamp stock at the
 SDCs.


                                                           5
Stamp Distribution Procedures                                                    FF-AR-11-012



Recommendations

We recommend the vice president, Supply Management, instruct Asset Management to:

1. Develop a comprehensive and consistent nationwide strategy to manage lost stamp
   stock shipments, identify trends and problem areas, and perform risk assessments.

2. Limit access to the Stamp Services System to employees responsible for postal
   retail unit stamp stock.

3. Instruct postal retail unit personnel to notify the U.S. Postal Service Office of
   Inspector General when stamp stock shipments are lost or missing.

4. Consolidate the three remaining Stamp Distribution Offices into the existing stamp
   distribution network.

5. Perform an analysis on stamp destruction workload and capacity and, based on the
   analysis, discontinue contractor operations and either purchase shredders for two
   Stamp Distribution Centers or purchase one shredder and consolidate stamp
   destruction into two Postal Service-operated destruction facilities.

Management’s Comments

Management generally agreed with our findings, recommendations, and monetary
impact.

Regarding recommendation 1, management plans to work with the SDCs, Finance, and
Operations to develop a strategy that can identify locations that have reported multiple
occurrences of claims for loss, and follow-up with performing a risk assessment and
develop corrective action in those problem areas. The target implementation date is July
2012.

Regarding recommendation 2, management plans to limit system access with the
migration from the SSS to the Solution for Enterprise Asset Management system. The
target implementation date is September 2012.

Regarding recommendation 3, management plans to coordinate with Finance on
communicating the current policy for instructing retail units to notify the OIG regarding
lost stamp stock shipments. The target implementation date is February 2012.

Regarding recommendation 4, management plans to work with Organizational
Effectiveness to discuss options for organizational changes to the stamp distribution
network. The target implementation date is December 2012.

Regarding recommendation 5, management is in the process of installing shredders at
two SDCs. Management will continue to manage the workload and make adjustments



                                              6
Stamp Distribution Procedures                                              FF-AR-11-012



as necessary once the equipment is installed and operational. The target
implementation date is October 2011.

See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s planned corrective actions should resolve the issues identified in the
report.




                                           7
Stamp Distribution Procedures                                                                     FF-AR-11-012



                                Appendix A: Additional Information

Background

The deputy postmaster general/chief operating officer requested a national security and
process review of the Postal Service Registered Mail system based on
recommendations made by the U.S. Postal Inspection Service. 12 The review resulted in
the Postal Service changing the shipping method for stamp stock from Registered Mail
service to Priority Mail with Signature Confirmation service effective April 2009.

During FY 2010, the Postal Service consolidated its existing stamp distribution network
from one or two SDOs in each district into six new SDCs. The new locations were
Portland, OR; Phoenix, AZ; Kansas City, MO; Atlanta, GA; Dulles, VA; and Binghamton,
NY. The Kansas City, Atlanta, and Phoenix SDCs also perform stamp stock returns and
destruction.

There are three remaining SDOs (San Juan, PR; Honolulu, HI; and Anchorage, AK).

Objectives, Scope, and Methodology

Our objectives were to determine whether procedures over stamp stock shipments are
efficient and effective and whether accountable items were properly secured and
accounted for in the stamp distribution network. To accomplish this objective, we:

    Reviewed Postal Service program guidelines and laws and regulations as they
     related to the audit objectives.

    Hosted an online discussion and survey of stamp distribution issues and reviewed
     the 140 responses we received.

    Conducted site visits at the Dulles and Kansas City SDCs and the San Juan SDO to
     observe procedures for stamp fulfillment, destruction, and inventory control.

    Evaluated the Postal Service’s decision for changing the method for shipping stamp
     stock and consolidating the stamp distribution network.

    Analyzed operating costs for the San Juan, Honolulu, and Anchorage SDOs; and
     destruction costs for the Atlanta and Phoenix SDCs.

    Discussed the impacts from changing the shipping procedures for stamp stock and
     procedures for monitoring lost stamp stock shipments with management.

    Compared FY 2008 cost segments for Registered Mail service to Priority Mail with
     Signature Confirmation service.

12
  National Security Review Postal Service Registered Mail System: The Next Generation, Case No.
0144-16523850-PVS (2), February 2008.


                                                       8
Stamp Distribution Procedures                                                 FF-AR-11-012




   Obtained EDW claims for loss records for a 2-year period ending November 2, 2010,
    and randomly selected and verified 80 claims for losses coded as lost or stolen
    stamp stock shipments. See Appendix C for our statistical sampling methodology.

   Interviewed and received responses from 32 districts pertaining to stamp stock
    shipment monitoring.

   Reviewed in-transit time for stamp stock shipments from the six SDCs to retail units.

   Discussed packaging procedures with management and reviewed changes in the
    procedures.

   Reviewed procedures for loose stamp stock at the processing facilities and the
    amount of stock returned to the SDCs.

   Discussed claims for losses data related to lost or stolen stamp stock shipments with
    U.S. Postal Inspection Service and OI personnel.

   Judgmentally sampled the 12 largest claims for loss to determine whether they were
    reported as lost or missing.

We conducted this performance audit from October 2010 through July 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on June 7, 2011, and included their
comments where appropriate.

We assessed the reliability of SSS and EDW data by performing electronic testing of
required data elements and interviewing agency officials knowledgeable about the data.
We determined that the data was sufficiently reliable for the purposes of this report.




                                            9
    Stamp Distribution Procedures                                            FF-AR-11-012



    Prior Audit Coverage

                                     Final
                                    Report     Monetary
 Report Title     Report Number      Date       Impact           Report Results
Stamp             MS-MA-09-002      1/12/09      None     The Postal Service initiated
Distribution                                              efforts to re-engineer its
Operations                                                accountable paper fulfillment
                                                          operations to achieve cost
                                                          savings. Supply
                                                          Management was preparing
                                                          a Decision Analysis Report
                                                          requesting funding to
                                                          implement the results of prior
                                                          studies in this area.
                                                          Management expected to
                                                          save between $2 million and
                                                          $14 million annually by
                                                          consolidating operations. We
                                                          did not make any
                                                          recommendations.
Fiscal Year        FF-AR-08-020     11/2/07        None   The internal controls we
2007                                                      examined were in place and
Financial                                                 effective. However, there
Installation                                              was an internal control and
Audit –                                                   compliance issue related to
Kansas City                                               the timely destruction of
Stamp                                                     $1.7 billion worth of obsolete
Service                                                   (non-salable) stock.
Center –                                                  Management agreed with the
Kansas City,                                              finding and recommendation
Missouri                                                  and took responsive action.




                                              10
Stamp Distribution Procedures                                                                        FF-AR-11-012



                            Appendix B: Monetary and Other Impacts

                                              Monetary Impacts

                  Finding                        Impact Category                          Amount
           Consolidate Stamp                  Funds Put to Better Use 13                 $4,376,918
           Distribution Network
           Consolidate Stamp                   Funds Put to Better Use                    1,530,233
           Destruction Network
                  Total                                                                  $5,907,151

                                                Other Impacts

                 Finding                         Impact Category                          Amount
           Mitigating Increased              Accountable Items at Risk 14                 $437,271
           Risks of Stamp
           Stock Losses




13
  Funds that could be used more efficiently by implementing recommended actions.
14
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.


                                                        11
Stamp Distribution Procedures                                                   FF-AR-11-012



                      Appendix C: Statistical Sampling Methodology

Purpose of the Sampling

The objective is to estimate the actual dollar amount of lost or stolen stamp stock
shipments over a 2-year period ending November 2, 2010.

Definition of the Audit Universe

The total audit universe (population) consisted of 534 claims for loss pertaining to lost or
stolen stamp stock shipments filed by Postal Service employees over the 2-year period
ending November 2, 2010. We identified the universe from information in the EDW and
extracted from it.

Sample Design

The objective required a variable analysis. We used a simple random sample
methodology and estimated the required sample size for a two-sided confidence
interval, at the 95 percent confidence level, and a +/- 20 percent precision. We
estimated the required sample size to be 80. We excluded 13 claims for loss totaling
$83,000 from the audit universe because we obtained these prior to sample design.

Statistical Projections of the Sample Data

The precision achieved did not fall within our internal reporting standards; therefore, we
are reporting the lower bound of a one-sided confidence level. We are 95 percent
confident the actual losses due to lost or stolen stamp stock shipments of the target
population over the 2-year period are at least $354,000. We added the 13 claims for
loss, totaling $83,000, excluded from the audit universe to the projected $354,000, for a
total of at least $437,000 in claims for losses related to lost or stolen stamp stock
shipments.




                                             12
Stamp Distribution Procedures                                 FF-AR-11-012



                          Appendix D: Management’s Comments




                                         13
Stamp Distribution Procedures        FF-AR-11-012




                                14
Stamp Distribution Procedures        FF-AR-11-012




                                15
